No.

;70 rt the
Supreme (trourt of the Prtiteb *atm

BENJAMIN RAMIREZ RUIZ,
Petitioner,
V.
PEOPLE OF THE STATE OF CALIFORNIA,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI
To THE CALIFORNIA SUPREME COURT

CERTIFICATE OF COMPLIANCE WITH WORD COUNT
Robert Joseph. Beles
California Bar no. 41993
1 Kaiser Plaza, Suite 2300
Oakland, California 94612-3642
Tel. No. (510) 836-0100
Fax No. (510) 832-3690
email: beleslaw@yahoo.com

Paul Gilruth McCarthy
California Bar no. 139497
1 Kaiser Plaza, Suite 2300
Oakland, California 94612-3642
Tel. No. (510) 836-0100
Fax No. (510) 832-3690
email: p_mccarthy@sbcglobal.net
Counsel for Petitioher

CERTIFICATE OF COMPLIANCE WITH WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ
of certiorari contains 5233 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d), and is within the 9000 word limit provided in the rule.
I declare under penalty of perjury that the above is true. Executed in Oakland,
California on Tuesday, July 6, 2021.

Robert Joseph Beles
Paul McCarthy
Attorneys for Petitioner

